September 17, 2010

JOSHUA D. COLIN
DISTRICT MANAGER, COLUMBUS DISTRICT

SUBJECT: Draft Management Advisory Report – The Effects of the Flats Sequencing
         System on Delivery Operations – Columbus District
         (Report Number DR-MA-10-002)

This report presents the results of our review on the Flats Sequencing System (FSS)
(Project Number 10XG006DR001). Our objective was to evaluate the effects of the FSS
on delivery operations and operating costs at selected Columbus District delivery units.
This self-initiated audit addressed operational risk. See Appendix A for additional
information about this audit.

In October 2006, the U.S. Postal Service recommended approval to acquire, develop,
purchase, and deploy 100 FSS machines at 33 sites. FSS machines sort flat-sized mail
such as large envelopes, newspapers, catalogs, circulars, and magazines into delivery
walk sequence at high speeds and at a much higher productivity rate than the manual
process. In full deployment, the FSS is expected to produce annual operational savings
for the Postal Service. Delivery units should achieve this savings by eliminating manual
carrier casings and reducing the number of routes, resulting in reduced workhours.

Conclusion

The five Columbus District delivery units1 reviewed improved delivery operations during
FSS full production. These units cut operating costs by $546,252 and reduced city
carrier office hours, manual distribution clerk workhours, and city carrier routes.
Although the FSS improved delivery operations, these delivery units received over 8.5
million flat mailpieces that were not processed on FSS. Over 2 million of these
mailpieces were not carrier routed2 and required manual sorting and casing to put them
in delivery walk sequence. This occurred because this mail did not meet flat mail
automation requirements.3 See Appendix B for our detailed analysis of this topic.


1
    The five Columbus District delivery units reviewed were:

  These unworked pieces must be manually sorted by the clerks and cased by the carriers. The carrier-routed
mailpieces are only handled by the carriers.
3
  Automation flats are not more than 11-1/2 inches long or more than 6-1/8 inches high, or more than 1/4 inch thick in
size. The piece should be able to bend at least 1 inch vertically without being damaged. Flat-sized mailpieces must
be uniformly thick so that any bumps, protrusions or other irregularities do not cause more than a 1/4-inch variance in
thickness. Mailers using polywrap film or similar material to enclose or cover flat-sized mailpieces must apply the
cover in the correct direction and ensure the label is readable.
The Effects of the Flats Sequencing System on                           DR-MA-10-002
 Delivery Operations – Columbus District


As a result the Postal Service missed the opportunity to further reduce workhour costs
and, consequently, we estimated incurred unrecoverable questioned costs of
approximately $155,157 for fiscal year (FY) 2010. See Appendix C for our monetary
impact.

We recommend the district manager, Columbus District:

1. Continue to collaborate with business mailers to ensure flat mailpieces meet
   automation requirements and reduce the amount of unworked flat mail sent to
   delivery units.

Management’s Comments

Management agreed with the finding and recommendation. Management stated they
will continue notifying mailers of irregularities in the preparation of mail presented to the
Columbus District utilizing the Electronic Mail Improvement Reporting (eMIR) system.

Management also indicated they have implemented two strategies to close the 13
percent gap between the district’s performance and the FSS baseline projections. First,
management is reviewing daily sites with more than 15 percent manual mail to evaluate
and resolve those sites with below 70 percent of flats volume processed on FSS. This
strategy has increased the FSS percentage by more than 2.07 percent. Secondly,
management is in the process of developing strategies to run First Class flats on FSS.
This initiative will occur in Quarter 1 of FY 2011. In subsequent discussions,
management agreed with the monetary impact. See Appendix D for management’s
comments in their entirety.

Evaluation of Management Comments

The U.S. Postal Service Office of Inspector General (OIG) considers managements’
comments responsive to the finding and recommendation, and management’s
corrective actions taken or planned should resolve the issue identified in the report.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Rita F. Oliver, director, Delivery
or me at 703-248-2100.




                                                2
The Effects of the Flats Sequencing System on       DR-MA-10-002
 Delivery Operations – Columbus District


     E-Signed by Robert Batta
 VERIFY authenticity with ApproveIt




Robert J. Batta
Deputy Assistant Inspector General
 for Mission Operations

Attachment

cc:     Patrick R. Donahoe
        Steven J. Forte
        Dean J. Granholm
        Elizabeth A. Schaefer
        Megan J. Brennan
        Timothy R. Costello
        Edward K. Harants
        Corporate Audit and Response Management




                                                3
The Effects of the Flats Sequencing System on                                                  DR-MA-10-002
 Delivery Operations – Columbus District


                               APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

In October 2006, the Postal Service approved Phase I Decision Analysis Report (DAR)
to develop, purchase, and deploy 100 FSS machines at 33 sites. The FSS machines
sort flat-sized mail such as large envelopes, newspapers, catalogs, circulars, and
magazines into delivery sequence at high speeds and at a much higher productivity rate
than the manual process. FSS-processed mail will arrive at the delivery unit in walk
sequence order, ready for delivery by the carrier with no additional mail movement or
manual sorting required.

The Postal Service had a difficult FY 2009. Mail volume declined by approximately 25
billion pieces. Due to declining mail volume of catalogs and Periodicals mail, the Postal
Service decided to add nearly 300 ZIP Codes™ to the list of areas that FSS machines
will serve. Postal Service Headquarters officials will spread the 100 machines in Phase I
of the FSS program among 42 city locations — including new sites in Houston, TX;
Philadelphia, PA; Charlotte, NC; and Minneapolis and St. Paul, MN — rather than
among the 33 original city locations.

The FSS is a critical component of the Postal Service’s strategy to contain costs
through automating the flat mail stream. In full deployment, the FSS is expected to
produce annual operational savings of $613 million. These savings should result when
delivery units can eliminate the requirement for mail carriers to manually case flat mail.
Since mail clerks would no longer need to manually sort flats, there should be a
reduction in clerks’ workhours at delivery units. Full production of FSS began in June
2009 and 80 delivery units are currently receiving FSS-processed mail.

OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to evaluate the effects of FSS on delivery operations and operating
costs at selected Columbus District delivery units. Due to staggered FSS full-production
testing start dates, the selected delivery units reviewed were integrated into the process
during different months of FYs 2009 and 2010. Our audit scope covered December
2008, to May 2010, which includes the performance period prior to the units receiving
FSS-processed mail and the performance period during which the reviewed units
received FSS-processed mail4. See Table 1.




4
    The scope limitations are due to differences in FSS production start dates for each delivery unit.




                                                              4
The Effects of the Flats Sequencing System on                            DR-MA-10-002
 Delivery Operations – Columbus District

                                   Table 1. FSS Review Periods
                          Performance Months Prior to            Performance Months of
        FSS Site           Receiving FSS Mailpieces      Receiving FSS Mailpieces in FY 2010
                           December 2008 – May 2009               June 2009 – May 2010
                           December 2008 – May 2009               June 2009 – May 2010
                            February 2009 – July 2009            August 2009 – May 2010
                            February 2009 – July 2009            August 2009 – May 2010
                            January 2009 – June 2009               July 2009 – May 2010
                         Source: Postal Service Columbus District Management

To accomplish our objective, we:

       Statistically selected five5 FSS delivery unit locations in the Columbus District.

       Reviewed operational issues throughout the district associated with delivery units
        receiving FSS sequenced flat mail.

     Reviewed applicable documentation, policies, and procedures such as the FSS
       DAR, dated October 20, 2006; the approved FSS Work Methods Memorandum
       of Understanding between the Postal Service and the National Association of
       Letter Carriers, dated November 24, 2008; the FSS Implementation Guide,
       Version 1, dated May 2009; and the Domestic Mail Manual, Section 300,
       Commercial Mail Flats, dated May 2008.

       Extracted and analyzed data from the Enterprise Data Warehouse (EDW)
        Delivery Data Mart for cased and FSS mailpieces, city carrier office and overtime
        workhours, carriers returning after 5 p.m., managed service scans, and mail
        distribution clerk office hours.

       Extracted and analyzed Customer Service Delivery Reporting System (CSDRS)
        Mail Condition, Curtailed and Delayed Mail, and Management Comment reports
        to determine the tracking and status of the mail as it arrives at the delivery unit.

       Extracted and analyzed CSDRS mail performance indicators from the WEB
        Executive Information System (WEBEIS).

       Extracted and analyzed eFlash data to determine delivery units’ weekly operating
        reporting management system in delivery and mail processing.

       Conducted site visits at selected delivery unit locations.

       Interviewed Postal Service Headquarters, Eastern Area, and Columbus District
        officials.


5
 Our sample included
units.




                                                5
  The Effects of the Flats Sequencing System on                                           DR-MA-10-002
   Delivery Operations – Columbus District


  We conducted this performance audit from February through September 2010 in
  accordance with the President’s Council on Integrity and Efficiency, Quality Standards
  for Inspections.6 We discussed our observations and conclusions with management
  officials on August 12, 2010, and included their comments where appropriate.

  We extracted and analyzed data from EDW, CSDRS, and WEBEIS. We assessed the
  reliability of data such as delivery performance indicators, cased and FSS flat
  mailpieces, carrier and clerk workhours, and mail condition reports by interviewing
  agency officials knowledgeable about the data. We determined that the data were
  sufficiently reliable for the purposes of this report.

  PRIOR AUDIT COVERAGE

  The OIG has issued eight reports and the Government Accountability Office (GAO) has
  issued one report related to our objective in the last several years.

                                                 Final
                             Report             Report          Monetary
   Report Title              Number              Date            Impact Report                      Results
Flats Sequencing          DR-AR-09-005          7/1/2010         $852,336         The report identified that Northern
System Operational                                                                Virginia District delivery units have
Issues                                                                            improved delivery operations with
                                                                                  the FSS. These units’
                                                                                  improvements contributed to a
                                                                                  6 month cost reduction of
                                                                                  $196,271. However, we identified
                                                                                  several FSS machines that were
                                                                                  unavailable for several months and
                                                                                  processing issues that negatively
                                                                                  impacted delivery operations.
                                                                                  Management agreed with the
                                                                                  finding and recommendations.
Flats Sequencing          DR-AR-09-011          9/28/2009          None          The five selected Northern Virginia
System on Delivery                                                               District delivery units improved in
Operation – Northern                                                             delivery operations during the initial
Virginia District                                                                6 months of FSS testing. Flat
                                                                                 volumes decreased by more than
                                                                                 50 percent during this testing
                                                                                 period, so we could not determine
                                                                                 how much of these operational
                                                                                 gains were due to implementation
                                                                                 of the FSS. We made no
                                                                                 recommendations in this report.


  6
    These standards were last promulgated by the President’s Council on Integrity and Efficiency (PCIE) and the
  Executive Council on Integrity and Efficiency (ECIE) in January 2005. Since then, The Inspector General Act of 1978
  as amended by the IG Reform Act of 2008 created the Council of the Inspectors General on Integrity and Efficiency
  (CIGIE), which combined the PCIE and ECIE. To date, the Quality Standards for Inspections have not been amended
  to reflect adoption by the CIGIE and, as a result, still reference the PCIE and ECIE.




                                                           6
  The Effects of the Flats Sequencing System on                                 DR-MA-10-002
   Delivery Operations – Columbus District



                                             Final
                          Report            Report         Monetary
   Report Title           Number             Date           Impact Report                 Results
Flats Sequencing        DA-AR-09-012        9/4/2009         None       Although FSS machine
System: First Article                                                   performance has improved since
Retest Results                                                          the original test, the system failed
                                                                        to meet key statement of work
                                                                        (SOW) performance parameters.
                                                                        The Postal Service attributed FSS
                                                                        performance shortcomings to the
                                                                        lack of additional hardware and
                                                                        software solutions incorporated into
                                                                        the First Article Testing 2A system.
                                                                        Failure to meet SOW performance
                                                                        requirements would reduce
                                                                        forecasted savings and increase
                                                                        operational burdens. Management
                                                                        partially agreed with the finding and
                                                                        recommendation.
Flats Sequencing        CA-AR-09-006 7/1/2009              $7,733,522   This audit determined that
System Contractual                                                      management of the FSS contract
Remedies                                                                process resulted in increased
                                                                        financial risk to the Postal Service.
                                                                        Management agreed with findings
                                                                        and recommendations 1 and 2 but
                                                                        only partially agreed with the
                                                                        finding and recommendation 3.
Flats Sequencing        DA-AR-09-001       12/23/2008        None       The report determined that
System: Program                                                         program management was
Status                                                                  attentive to system performance
                                                                        and schedule risks. Management
                                                                        agreed with the finding and
                                                                        recommendation in this report.
Management of           CA-MA-09-002 12/1/200      8         None       The report did not identify any
Contract Changes –                                                      unnecessary or inappropriate
Flats Sequencing                                                        increased costs to the Postal
System                                                                  Service because of changes to the
                                                                        FSS contract. Management agreed
                                                                        with the finding and
                                                                        recommendation in this report.
Flats Sequencing        DA-AR-08-006        6/4/2008         None       The report determined the Postal
System: Production                                                      Service needed to focus greater
First Article Testing                                                   attention on workload, the First
Readiness and                                                           Article Testing schedule, and
Quality                                                                 critical deliverables. Management
                                                                        generally agreed with the finding
                                                                        and recommendation in this report.




                                                       7
  The Effects of the Flats Sequencing System on                              DR-MA-10-002
   Delivery Operations – Columbus District



                                             Final
                          Report            Report       Monetary
   Report Title           Number             Date         Impact Report               Results
Flats Sequencing        DA-AR-07-003       7/31/2007       None     The report determined that Postal
System Risk                                                         Service Engineering needed to
Management                                                          focus greater attention on risk
                                                                    management standards to ensure
                                                                    the significant risks associated with
                                                                    deployment of the FSS were
                                                                    adequately identified and
                                                                    managed. Management agreed
                                                                    with findings and recommendations
                                                                    1 and 2, but disagreed with the
                                                                    findings and recommendations 3
                                                                    and 4 of this report.
Mail Delivery            GAO-09-696 7/15/200      9        None     The Postal Service has taken steps
Efficiency Has                                                      to deliver mail more efficiently,
Improved, but                                                       including adjusting delivery routes
Additional Actions                                                  to reflect declining volumes and
Needed to Achieve                                                   investing in more efficient mail-
Further Gains                                                       sorting technologies. This report
                                                                    addressed how the Postal Service
                                                                    monitors delivery efficiency,
                                                                    characteristics of delivery units that
                                                                    affect their efficiency, and the
                                                                    status and results of the Postal
                                                                    Service’s actions to improve
                                                                    delivery efficiency, in particular the
                                                                    FSS. There were no
                                                                    recommendations in this report.




                                                     8
The Effects of the Flats Sequencing System on                          DR-MA-10-002
 Delivery Operations – Columbus District


                             APPENDIX B: DETAILED ANALYSIS

Improvements in City Delivery

The selected Columbus District delivery units improved their delivery operations and
reduced operating costs during the initial 6 months of FSS full production. Specifically,
we found reductions in:

         City carrier office hours.
         Manual distribution clerk workhours.
         City carrier routes.

City Carrier Office Hours

City carrier office hours declined at the selected units. In the 6 months prior to receiving
FSS-processed flat mail, city carriers used 39,538 office hours. During the initial 6
months of receiving FSS-processed mail, the number of office hours used declined to
27,026 — a reduction of 12,512 hours. According to delivery unit officials, the reductions
were due to flat mailpieces arriving in sequence order, resulting in less time required to
case flat mailpieces. See Chart 1.

                                  Chart 1. City Carrier Office Hours




                                                Source: EDW




                                                     9
The Effects of the Flats Sequencing System on                             DR-MA-10-002
 Delivery Operations – Columbus District


For the 6 months prior to units receiving FSS-processed mail, city carriers’ office hour
costs were $1,660,950. During the initial 6 months of receiving FSS-processed mail,
office hour costs declined to $1,180,203, resulting in a cost reduction of $480,747.
See Chart 2.

                                Chart 2. City Carrier Office Hour Costs




                                                Source: EDW

Manual Distribution Clerk Workhours

The FSS environment caused a change in the manual distribution clerks’ workload.
Manual distribution clerk workhours decreased by 1,853 for these five units. For the 6
months prior to units receiving FSS-processed mail, Manual Distribution clerks used
17,273 workhours to manually sort mail at the selected delivery units compared to the
15,420 workhours they used during the initial 6 months of receiving FSS-processed
mail. See Chart 3.




                                                    10
The Effects of the Flats Sequencing System on                              DR-MA-10-002
 Delivery Operations – Columbus District

                            Chart 3. Manual Distribution Clerk Workhours




                                                Source: EDW

For the 6 months prior to units receiving FSS-processed mail, manual distribution
workhour costs were $788,857 and during the initial 6 months of units receiving
FSS-processed mail the workhour costs declined to $723,352. This resulted in a cost
reduction of $65,505. See Chart 4.




                                                    11
The Effects of the Flats Sequencing System on                                DR-MA-10-002
 Delivery Operations – Columbus District

                         Chart 4. Manual Distribution Clerk Workhour Costs




                                                Source: EDW

City Carrier Routes

The delivery units receiving FSS mail will be the ultimate driver of the savings from FSS
processing. The savings are a result of reductions in the number of routes based on
reduced casing of flats from the FSS. For the selected delivery units receiving
FSS-processed mail, management conducted route adjustments to reduce the number
of routes from 118 to 102, resulting in the elimination of 16 city carrier routes.
See Table 2.

                         Table 2. FSS Route Adjustments for City Delivery
                                                Total City       Total City
                                              Routes Before     Routes After
                                                  Route            Route
                         Delivery Unit         Adjustments      Adjustments
                                                    27               23
                                                   20                18
                                                   12                10
                                                   22                20
                                                   37                31
                            Totals                 118              102
                       Source: Postal Service Columbus District Management




                                                    12
The Effects of the Flats Sequencing System on                                                DR-MA-10-002
 Delivery Operations – Columbus District


Unworked Flat Mailpieces

These delivery units received approximately 20.2 million flat mailpieces7 of which over
8.5 million could not be processed on FSS (see Table 3). Of the 8.5 million mailpieces,
more than 2 million were not carrier-routed and required manual sorting by clerks and
manual casing by carriers.

                             Table 3. October 2009 – May 2010 Flat Mail Volume
                                                                                                    Total
                                  Total                                                          Cased Flat
                                Delivered            Total        Other               Total      Mailpieces
                                   Flat              FSS       Sequenced            Cased Flat Not Carrier
         Delivery Unit          Mailpieces        Mailpieces     Volume8            Mailpieces     Routed
                                 3,212,766          1,767,887       351,029          1,093,850 204,78      6
                                 1,868,493            926,194       407,928            534,371 133,52      9
                                 1,788,036            872,914       389,856            525,266 249,70      3
                                 7,815,891          1,613,312     1,565,014          4,637,565 734,67      7
                                 5,542,169          2,807,934       937,109          1,797,126 739,62      6
             Totals             20,227,355          7,988,241     3,650,936          8,588,178     2,062,321
                                                   Source: eFlash

This condition occurred because the mail did not meet automation requirements 9 which
the district management acknowledged. The district manager stated that he monitors
FSS operations and conducts daily teleconference meetings with district delivery unit
officials and business mailers to discuss FSS improvements. In addition, the district
manager participates in a weekly teleconference with Eastern Area and Postal Service
Headquarters officials to discuss any FSS issues occurring in the field.

Unworked flat mailpieces that arrive at delivery units which are not processed on the
FSS machines negatively impact delivery operations by requiring manual casing and
sorting to put the mailpieces in sequenced order for delivery. Consequently, we
estimated unrecoverable questioned costs of approximately $155,157 for FY 2010.
See Appendix C for our monetary impact.




7
  From October 2009 through May 2010, the processing facility sent 20,227,355 flat mailpieces to the five selected
units during full production. These flat mailpieces included 11,639,177 in sequenced order (7,988,241 flat mailpieces
processed on an FSS machine and 3,650,936 other sequenced flat mailpieces such as advertisement flyers and
newspapers) and 8,588,178 cased flat mailpieces.
8
  Other sequenced flat mailpieces include advertisement flyers and newspapers in sequence order
9
  Automation flats are not more than 11-1/2 inches long, more than 6-1/8 inches high or more than 1/4 inch thick in
size. The piece should be flexible enough to bend at least 1 inch vertically without being damaged. Flat-sized
mailpieces must be uniformly thick so that any bumps, protrusions or other irregularities do not cause more than a
1/4-inch variance in thickness. Mailers using polywrap film or similar material to enclose or cover flat-sized mailpieces
must apply the cover in the correct direction and ensure that label is readable.




                                                           13
  The Effects of the Flats Sequencing System on                                               DR-MA-10-002
   Delivery Operations – Columbus District


                                    APPENDIX C: MONETARY IMPACT

  We estimated a monetary impact of $155,157 in unrecoverable questioned costs10 for
  FY 2010. We calculated the cost savings11 based on additional labor cost incurred by
  selected Columbus delivery units due to city carriers and manual distribution clerks
  casing and sorting flat mailpieces. See Tables 4, 5, and 6.

                                  Table 4. Summary of Cost Savings
                             Findings                               Impact Category                             Amount
Unworked Flats City Carriers October 2009 – May 2010              Unrecoverable                                 $112,000
FY 2010 Costs for Manual Casing (see Table 5)                     questioned costs
Unworked Flats Manual Distribution Clerks October 2009 – May 2010 Unrecoverable                                     43,157
FY 2010 Costs for Manual Sorting (see Table 6)                    questioned costs
                                                                          Total                                  $155,157
                                         Source: OIG Analysis

                 Table 5. City Carrier Costs for Manually Casing Flat Mail October 2009 – May 2010
                                       Total        FY 2010        Total        FY 2010
                                      Cased         Cost of       Cased         Cost of                              FY 2010
                      FY 2010       Unworked        Casing      Unworked        Casing     Total Cased               Cost of
                    Number of       Flat Pieces   Workhours     Flat Pieces Workhours       Unworked                  Casing
                      Casing            (100          (100          (80            (80      Flat Pieces             Workhours
Delivery Unit       Workhours        Percent)       Percent)     Percent)      Percent)    (67 Percent)            (67 Percent)
                             475 204,7       86       $ 20,749      163,829       $ 16,599       109,765                $ 11,121
                             310 133,5       29         13,529      106,823 10,82        3        71,571                   7,251
                             579 249,7       03         25,301      199,762 20,24        0       133,841                  13,560
                           1,705 734,6       77         74,439      587,742 59,55        1       393,787                  39,899
                           1,716 739,6       26         74,941      591,701 59,95        3       396,440                  40,169
   Totals                  4,785      2,062,321      $208,959     1,649,857      $167,166      1,105,404               $112,000
                                            Source: EDW and OIG Analysis

         Table 6. Manual Distribution Clerk Costs for Manually Sorting Flat Mail October 2009 – May 2010
                                      Total       FY 2010        Total        FY 2010
                                     Sorted       Cost of        Cased        Cost of     Total Sorted     FY 2010
                     FY 2010       Unworked       Sorting      Unworked       Casing        Unworked       Cost of
                    Number of     Flat Pieces Workhours       Flat Pieces Workhours            Flat        Sorting
                     Sorting          (100          (100          (80            (80        Mailpieces    Workhours
Delivery Unit       Workhours       Percent)      Percent)      Percent)     Percent)      (67 Percent)  (67 Percent)
                            204 204,7       86        $ 9,547     163,829         $ 7,638        91,929       $ 4,285
                            133 133,5       29          6,225     106,823 4,980                  59,941         2,795
                            248 249,7       03        11,641      199,762 9,313                 112,091         5,225
                            730 734,6       77        34,250      587,742 27,40         0       329,796        15,374
                            735 739,6       26        34,480      591,701 27,58         4       332,018        15,478
   Totals                 2,050     2,062,321        $96,143    1,649,857        $76,915        925,775       $43,157
                                          Source: EDW and OIG Analysis


  10
     Unrecoverable costs that are unnecessary, unreasonable or an alleged violation of law or regulation.
  11
     According to the DAR for the FSS program, delivery units should expect to capture an 85 percent savings rate for
  city carriers and an 80 percent savings rate for manual distribution clerks; we used the 80 percent rate to be
  conservative in our calculations. We based the calculated savings on a carrier productivity rate of 431 flats per hour
  and clerk productivity of 1,006.25 mailpieces per hour. The manual distribution clerk calculation does not consider
  carrier route mailpieces because the piece count is not available. Calculations used FY 2010 wage rates.




                                                            14
The Effects of the Flats Sequencing System on           DR-MA-10-002
 Delivery Operations – Columbus District


                        APPENDIX D: MANAGEMENT’S COMMENTS




                                                15
The Effects of the Flats Sequencing System on        DR-MA-10-002
 Delivery Operations – Columbus District




                                                16
The Effects of the Flats Sequencing System on        DR-MA-10-002
 Delivery Operations – Columbus District




                                                17
